                     AUDIT REPORT

                   Audit of NRC’s Oversight of Construction
                            at New Nuclear Facilities


                    OIG-09-A-17     September 29, 2009




All publicly available OIG reports (including this report) are accessible through
                              NRC’s Web site at:
             http:/www.nrc.gov/reading-rm/doc-collections/insp-gen/
                             UNITED STATES
                     NUCLEAR REGULATORY COMMISSION
                              WASHINGTON, D.C. 20555-0001




OFFICE OF THE
INSPECTOR GENERAL
                                           September 29, 2009

MEMORANDUM TO:              R. William Borchardt
                            Executive Director for Operations



FROM:                       Stephen D. Dingbaum /RA/
                            Assistant Inspector General for Audits


SUBJECT:                    AUDIT OF NRC’S OVERSIGHT OF
                            CONSTRUCTION AT NUCLEAR FACILITIES
                            (OIG-09-A-17)


Attached is the Office of the Inspector General’s (OIG) audit report titled, Audit of
NRC’s Oversight of Construction at Nuclear Facilities. The report presents the
results of the subject audit. Agency comments provided at the September 16,
2009, exit conference and a subsequent meeting September 21, 2009, have
been incorporated, as appropriate, into this report.

Please provide information on actions taken or planned on the recommendation
within 30 days of the date of this memorandum. Actions taken or planned are
subject to OIG followup as stated in Management Directive 6.1.

We appreciate the cooperation extended to us by members of your staff during
the audit. If you have any questions or comments about our report, please
contact me at 415-5915 or Sherri Miotla, Team Leader, Nuclear Safety Audit
Team, at 415-5914.

Attachment: As stated
Electronic Distribution

Edwin M. Hackett, Executive Director, Advisory Committee on Reactor
 Safeguards
E. Roy Hawkens, Chief Administrative Judge, Atomic Safety and
 Licensing Board Panel
Stephen G. Burns, General Counsel
Brooke D. Poole, Jr., Director, Office of Commission Appellate Adjudication
James E. Dyer, Chief Financial Officer
Margaret M. Doane, Director, Office of International Programs
Rebecca L. Schmidt, Director, Office of Congressional Affairs
Eliot B. Brenner, Director, Office of Public Affairs
Annette Vietti-Cook, Secretary of the Commission
R. William Borchardt, Executive Director for Operations
Bruce S. Mallett, Deputy Executive Director for Reactor
 and Preparedness Programs, OEDO
Martin J. Virgilio, Deputy Executive Director for Materials, Waste, Research,
 State, Tribal, and Compliance Programs, OEDO
Darren B. Ash, Deputy Executive Director for Corporate Management
 and Chief Information Officer, OEDO
Vonna L. Ordaz, Assistant for Operations, OEDO
Kathryn O. Greene, Director, Office of Administration
Patrick D. Howard, Director, Computer Security Officer
Cynthia A. Carpenter, Director, Office of Enforcement
Charles L. Miller, Director, Office of Federal and State Materials
  and Environmental Management Programs
Guy P. Caputo, Director, Office of Investigations
Thomas M. Boyce, Director, Office of Information Services
James F. McDermott, Director, Office of Human Resources
Michael R. Johnson, Director, Office of New Reactors
Michael F. Weber, Director, Office of Nuclear Material Safety and Safeguards
Eric J. Leeds, Director, Office of Nuclear Reactor Regulation
Brian W. Sheron, Director, Office of Nuclear Regulatory Research
Corenthis B. Kelley, Director, Office of Small Business and Civil Rights
Roy P. Zimmerman, Director, Office of Nuclear Security and Incident Response
Samuel J. Collins, Regional Administrator, Region I
Luis A. Reyes, Regional Administrator, Region II
Mark A. Satorius, Regional Administrator, Region III
Elmo E. Collins, Jr., Regional Administrator, Region IV
                                  Audit of NRC’s Oversight of Construction at New Nuclear Facilities



EXECUTIVE SUMMARY

   BACKGROUND

        In recent years, there has been renewed worldwide interest in constructing
        nuclear facilities. The Nuclear Regulatory Commission (NRC) is
        responsible for licensing and inspecting construction activities of new
        civilian-use nuclear reactor and fuel cycle facilities built in the United
        States. The nuclear industry is responsible for ensuring that the design
        and construction of these facilities are in accordance with applicable NRC
        regulations.

        During the 1970s and 1980s, NRC and its predecessor, the Atomic
        Energy Commission, oversaw the industry’s construction of the first
        generation of U.S. nuclear plants. Several of the construction projects
        experienced significant problems related to design and construction
        quality resulting in the cancellation of several plants in various stages of
        construction. Congress, at that time, questioned NRC’s ability to provide
        effective regulatory oversight of the construction activities and directed the
        agency to study ways to improve quality in the construction of future
        plants. In response to the congressional directive, NRC issued, in May
        1984, NUREG-1055, Improving Quality and the Assurance of Quality in
        the Design and Construction of Nuclear Power Plants: A Report to
        Congress. The report concluded that NRC's inspection practices were
        inadequate and offered several recommendations to improve NRC
        programs.

        In 2006, NRC reorganized in response to the anticipated new reactor
        licensing and construction inspection workload. The Office of New
        Reactors (NRO) was created in headquarters with the primary
        responsibility for developing the Construction Inspection Program (CIP)
        and its associated program guidance. The CIP was designed to ensure
        that plants are built in accordance with the approved design and licensing
        requirements and will operate in compliance with NRC regulations. The
        agency continues to revise the CIP. In March 2009, NRO issued NRO-
        REG-112, New Reactor Construction Experience Program, to better
        inform the CIP. NRO-REG-112 provides guidance for a new construction
        lessons learned process that is informed by domestic and international
        experiences, past lessons learned, and construction inspection activities.

   PURPOSE

        The audit objective was to determine if and how NRC is identifying and
        incorporating lessons learned in its new Construction Inspection Program.
        Appendix A provides information on the audit scope and methodology.



                                         i
                              Audit of NRC’s Oversight of Construction at New Nuclear Facilities




RESULTS IN BRIEF

      NRC’s process for identifying construction lessons learned contains some,
      but not all, of the key elements of a successful program. While NRO-
      REG-112 lays out the foundation for gathering lessons learned data
      related to construction, it does not comprehensively contain all the key
      elements identified as important to the success of an organization’s
      lessons learned program. As such, the lack of well-developed guidance
      could jeopardize the CIP’s goal to prevent recurrences of construction-
      related problems and may compromise the public’s confidence in NRC’s
      ability to effectively oversee new nuclear construction projects.

RECOMMENDATION

      This report makes one recommendation to help NRC improve its
      Construction Inspection Program. The recommendation appears in
      Section III.

OIG ANALYSIS OF AGENCY COMMENTS

      An exit conference was held with NRC senior executives on
      September 16, 2009. Agency officials generally agreed with the report’s
      finding and recommendation and decided not to provide formal comments.
      This final report incorporates informal comments provided by the agency,
      as appropriate.




                                    ii
                          Audit of NRC’s Oversight of Construction at New Nuclear Facilities



ABBREVIATIONS AND ACRONYMS

       CFR     Code of Federal Regulations

       CIP     Construction Inspection Program

       NRC     Nuclear Regulatory Commission

       NRO     Office of New Reactors

       OIG     Office of the Inspector General




                                iii
         Audit of NRC’s Oversight of Construction at New Nuclear Facilities




[Page intentionally left blank]




               iv
                                           Audit of NRC’s Oversight of Construction at New Nuclear Facilities




TABLE OF CONTENTS

        EXECUTIVE SUMMARY ...................................................................... i

        ABBREVIATIONS AND ACRONYMS................................................. iii

        I.     BACKGROUND ...........................................................................1

        II.    PURPOSE ...................................................................................4

        III.   FINDING ......................................................................................5

                 NRC’S CIP NEEDS ENHANCEMENTS TO ACHIEVE ITS
                 FULL POTENTIAL..........................................................................5

        IV.    AGENCY COMMENTS..............................................................11


        APPENDIX

        SCOPE AND METHODOLOGY ........................................................13




                                                   v
         Audit of NRC’s Oversight of Construction at New Nuclear Facilities




[Page intentionally left blank.]




               vi
                                 Audit of NRC’s Oversight of Construction at New Nuclear Facilities



I.   BACKGROUND

        In recent years, there has been renewed worldwide interest in constructing
        nuclear facilities. The Nuclear Regulatory Commission (NRC) is
        responsible for licensing and inspecting construction activities of new
        civilian-use nuclear reactor and fuel cycle facilities built in the United
        States. The nuclear industry is responsible for ensuring that the design
        and construction of these facilities are in accordance with applicable NRC
        regulations.

              Early Construction Issues

        During the 1970s and 1980s, NRC and its predecessor, the Atomic
        Energy Commission, oversaw the industry’s construction of the first
        generation of U.S. nuclear plants. Several of the construction projects
        experienced significant problems related to design and construction
        quality resulting in the cancellation of several plants in various stages of
        construction. For example, construction at the proposed Marble Hill plant
        in Indiana was stopped due to quality problems relating to concrete and
        piping installation. Additionally, construction at the proposed Zimmer plant
        in Ohio was halted due to quality issues caused by lack of management
        experience and an undersized staff. Neither plant was ever licensed to
        generate nuclear power.

        Congress, at that time, questioned NRC’s ability to provide effective
        regulatory oversight of the construction activities and directed the agency
        to study ways to improve quality in the construction of future plants. The
        study was to focus on the causes of the major quality-related construction
        problems and the untimely detection and correction of those problems.

        In response to the congressional directive, NRC issued, in May 1984,
        NUREG-1055, Improving Quality and the Assurance of Quality in the
        Design and Construction of Nuclear Power Plants: A Report to Congress.
        The report concluded that NRC's inspection practices were inadequate
        and offered several recommendations to improve NRC programs.

              NRC’s Construction Inspection Program

        The Construction Inspection Program (CIP) was designed to ensure that
        plants are built in accordance with the approved design and licensing
        requirements and will operate in compliance with NRC regulations. The
        agency continues to revise the CIP. For example, the agency
        incorporated some modifications suggested in its report to Congress,
        NUREG-1055, to improve NRC’s construction oversight. Further, the CIP
        carries out its mandate by ensuring that licensees and applicants
        construct the facilities according to approved design criteria, using
        appropriate practices and quality materials. Also, the CIP includes the

                                       1
                         Audit of NRC’s Oversight of Construction at New Nuclear Facilities



construction inspection manual chapters and inspection procedures that
support NRC’s licensing process. Through the CIP, NRC staff will
coordinate inspections with licensee construction schedules.

The CIP has four phases. The first phase supports a licensing decision
for an early site permit, the second phase supports issuance of a
combined license, and the third and fourth phases support construction
activities and preparation for operations.

In 2006, NRC reorganized in response to the anticipated new reactor
licensing and construction inspection workload. The Office of New
Reactors (NRO) was created in headquarters with the primary
responsibility for developing the CIP and its associated program guidance.
To consolidate construction inspection oversight of new nuclear facilities,
a Center for Construction Inspection was created in Region II, Atlanta,
Georgia. Region II inspectors have the primary responsibility for
implementing the CIP.

      NRC’s Construction Lessons Learned Process

In March 2009, NRO issued NRO-REG-112, New Reactor Construction
Experience Program, to better inform the CIP. NRO-REG-112 provides
guidance for a new construction lessons learned process that is informed
by domestic and international experiences, past lessons learned, and
construction inspection activities. More specifically, the NRO-REG-112
process will be used to evaluate experiences and events to determine if
they rise to the level of lessons learned. These lessons learned will be
used to inform and revise the CIP as necessary, as seen in Figure 1.

   Figure 1. Construction Lessons Learned Process




                      Source: OIG analysis


                               2
                                                      Audit of NRC’s Oversight of Construction at New Nuclear Facilities



                            Status of New Reactor Activities

                   For fiscal year 2009, the agency budgeted $243.5 million, including 819
                   full-time equivalent staff for new reactor activities to include the CIP.
                   These staff members provide varying amounts of support to the CIP on an
                   ongoing basis.

                   N1RC expects all applications for new nuclear power plants to comply with
                   the requirements of Title 10, Code of Federal Regulations (10 CFR) Part
                   52, which implements a one-step combined construction and operating
                   license process.1 Upon receiving NRC approval, applicants receive a
                   combined license that consists of a construction permit and a conditional
                   operating license for the new reactor. As of July 2009, NRC was actively
                   reviewing 17 combined operating license applications for new nuclear
                   power plants, and the agency anticipates the submission of another 5
                   combined operating license applications by fiscal year 2011. Figure 2
                   indicates the projected locations of new plants across the United States.
                   To date, NRC has approved:

                      Three early site permits,2 with a fourth under review.

                      Four standard design certifications,3 with four more under review.

                      One limited work authorization.4




1
  10 CFR Part 52, Licenses, Certifications, and Approvals for Nuclear Power Plants. The 104 currently operating
plants were licensed and built under the two-step process in 10 CFR Part 50, where applicants were required to apply
for the construction permit and operating license separately.
2
  An early site permit is a Commission-approved partial construction permit issued under subpart A of Part 52, for a
site or sites for one or more nuclear power facilities.

3
  Design certification is achieved through NRC's rulemaking process subsequent to staff’s review and approval of
a standardized nuclear power plant design, independent of a site-specific application to construct or operate a plant.

4
  A limited work authorization specifies the activities that the holder is authorized to perform, all at the applicant’s own
risk as the issuance of the limited work authorization has no bearing on receiving a combined license.


                                                             3
                                        Audit of NRC’s Oversight of Construction at New Nuclear Facilities



      Figure 2. Location of Projected New Nuclear Power Plants




                                                                          Source: NRC We




            Source: Information depicted based on NRC public Web site as of July 9, 2009.


II.   PURPOSE

            The audit objective was to determine if and how NRC is identifying and
            incorporating lessons learned in its new Construction Inspection Program.
            Appendix A provides information on the audit scope and methodology.




                                              4
                                                Audit of NRC’s Oversight of Construction at New Nuclear Facilities




III.      FINDING

       NRC’s CIP Needs Enhancements to Achieve its Full Potential

                 NRC’s process for identifying construction lessons learned contains some,
                 but not all, of the key elements of a successful program. While NRO-
                 REG-112 lays out the foundation for gathering lessons learned data
                 related to construction, it does not comprehensively contain all the key
                 elements identified as important to the success of an organization’s
                 lessons learned program. As such, the lack of well-developed guidance
                 could jeopardize the CIP’s goal to prevent recurrences of construction-
                 related problems and may compromise the public’s confidence in NRC’s
                 ability to effectively oversee new nuclear construction projects.


                 Key Elements for Successful Lessons Learned Programs

                 A comprehensive process for capturing lessons learned, which includes
                 elements with clearly defined criteria, is vital to an organization’s success.
                 The Construction Industry Institute is a consortium of more than 100 firms
                 from both the public and private arenas joined together to measurably
                 improve the construction industry. Through research and development of
                 best practices, the Construction Industry Institute published a study5 that
                 identifies key process elements for successful lessons learned programs.

                  Leadership: Upper management needs to strongly support the
                   process and encourage the use of lessons learned information.

                  Definition: Organizations with well-established processes for capturing
                   lessons learned have defined the term “lessons learned.” The
                   Construction Industry Institute defines lessons learned as “knowledge
                   gained from experience, successful or otherwise, for the purpose of
                   improving future performance.”

                  Collection, Analysis, and Implementation: Organizations should have
                   a well-defined work process for submitting or collecting potential
                   lessons learned issues and those issues should be screened and
                   analyzed by qualified personnel. Organizations should incorporate any
                   resulting lessons learned into work processes, procedures, or policies
                   and then effectively communicate lessons learned information to the
                   staff.


5
  Construction Industry Institute: Research Summary 230-1, Effective Management Practices and Technologies for
Lessons Learned Programs, dated May 2007; Implementation Resource 230-2, Implementation of Lessons Learned
Programs, dated July 2007; and Research Report 230-11, An Analysis of Lessons Learned Programs in the
Construction Industry, dated November 2007.
                                                       5
                         Audit of NRC’s Oversight of Construction at New Nuclear Facilities



 Resources: Organizations should provide the resources and
  information technology infrastructure needed to capture, analyze, and
  share lessons learned with staff and other stakeholders.

 Maintenance and Improvement: Organizations should have a
  mechanism for soliciting feedback from stakeholders on how to
  improve their lessons learned processes.

 Culture: An organization’s culture should include a lessons learned
  process that is an integral part of day-to-day activities for all staff.

NRC’s Construction Lessons Learned Process Lacks Key Elements

NRC’s process for identifying construction lessons learned contains some,
but not all, of the key elements of a successful program. NRC’s
leadership has publicly stated its commitment to the importance of lessons
learned. The agency has also incorporated guidance for maintaining and
improving its lessons learned process. However, the agency falls short in
formally identifying a lessons learned definition, collection and
implementation procedures, as well as appropriate resources. NRC’s
culture regarding its construction lessons learned process also tends to be
informal.

 Leadership: The NRC Commission and other senior managers
  consistently emphasize the importance of understanding past and
  current construction lessons learned as critical to the success of new
  reactor construction efforts. For example, a Commission member
  noted that the agency needs to make sure all staff continue to
  “understand the mistakes of the past.” Another Commission member
  stated that numerous historical lessons provide important insights
  related to quality and oversight issues during the previous period of
  construction. According to senior NRC managers, understanding
  NRC’s past events is the key to avoiding future problems with new
  construction. And, if the agency is not proactive in capturing lessons
  learned, it will “not keep the memory of past events or learn from
  them.”

 Definition: NRC does not have an official definition for lessons
  learned. Agency managers and staff presume that the definition is
  commonly understood. Yet, they all have different understandings and
  expectations for what lessons learned might include. Most believe that
  lessons learned are negative events and, therefore, they overlook the
  possibility of including a positive event as a lessons learned. For
  example, several inspectors said that they consider lessons learned to
  be limited to learning from past mistakes to prevent future problems,




                               6
                         Audit of NRC’s Oversight of Construction at New Nuclear Facilities



   although a senior manager stated that lessons learned are a
   combination of learning from past problems as well as using good
   management practices.

 Collection, Analysis, and Implementation: Regarding collection, NRC
  lacks the formal criteria to help staff identify which issues must be
  brought forward to management for consideration as potential
  construction lessons learned.

   Regarding analysis, NRC analyzes potential construction lessons
   learned through screening meetings that are described in
   NRO-REG-112.

   Regarding implementation, NRC does not have a procedure that
   documents how a lesson learned is implemented through the CIP.

 Resources: NRC does not identify the level of expertise required for
  staff involvement in the construction lessons learned evaluation
  process. Staff members, ranging in experience from interns to branch
  chiefs, participate in daily screening meetings and make decisions on
  whether or not to move issues forward for consideration as potential
  lessons learned. According to an agency manager involved in these
  daily screening meetings, attendance is based more on staff
  availability than expertise.

   OIG interviewed staff at several Federal and private entities who
   acknowledged that well-developed lessons learned programs are
   essential to their organization’s success. As shown in Table 1, the
   lessons learned programs in these organizations reflect the key
   elements identified by the Construction Industry Institute related to the
   definition, collection and implementation of lessons learned information
   and available resources. For example, most of the organizations
   contacted have a formal definition of lessons learned and specific
   expectations regarding the level of experience or training for the staff
   involved in evaluating potential lessons learned issues.




                               7
                                                 Audit of NRC’s Oversight of Construction at New Nuclear Facilities




       Table 1. Examples of Federal and Private Entity Lessons Learned Program Elements

Agency/             Definition             Collection                 Implementation                    Resources
Organization

NRC                 No            Access for entering issues into   Some lessons learned        NRC screens potential
(CIP/NRO-REG-112)                 the process is limited.           are incorporated into       lessons learned. No
                                                                    program guidance.           specified qualifications
                                                                    However, information        required for screeners.
                                                                    sharing occurs in an
                                                                    ad hoc fashion.

                    Yes           Any employee can enter any        Staff can directly access   Lead office experts screen
FEDERAL AGENCY A                  issue directly into the lessons   the lessons learned         and evaluate potential
                                  learned process for               database and issues are     lessons learned material.
                                  consideration.                    shared on a real-time
                                                                    basis so that offices can
                                                                    revise their programs.

                    Yes           Any employee can enter any        Staff can directly access   Issues entered into the
                                  issue directly into the lessons   the lessons learned         process are screened by
FEDERAL AGENCY B                  learned process for               database. The agency        subject matter technical
                                  consideration.                    routinely publishes         experts.
                                                                    individual documents
                                                                    with in-depth analyses of
                                                                    significant lessons
                                                                    learned.

                    Yes           Any employee can enter any        Staff can directly access   Issues entered into the
PRIVATE ENTITY A                  issue directly into the lessons   the lessons learned         process are screened by
                                  learned process for               database.                   senior managers and
                                  consideration.                    Institutionalized lessons   technical experts.
                                                                    learned are incorporated
                                                                    in program guidance;
                                                                    other issues are retained
                                                                    for trending purposes.

                    No            Any employee can enter any        Staff and external          Issues are subject to a
PRIVATE ENTITY B                  issue directly into the lessons   stakeholders can directly   double-layer screening
                                  learned process for               access the lessons          process, both performed by
                                  consideration.                    learned database.           senior, experienced staff.
                                                                    Significant lessons
                                                                    learned are promptly
                                                                    communicated to the
                                                                    nuclear industry to allow
                                                                    changes to program
                                                                    guidance.

                                             Source: OIG analysis

                     Maintenance and Improvement: According to NRO-REG-112, NRC
                      will periodically review its construction lessons learned process to
                      assess effectiveness. The review should include an assessment of the
                      process’ efficiency and effectiveness, as well as the feedback from
                      internal stakeholders. The review should also identify areas for
                      improvement as appropriate.

                     Culture: NRC’s culture includes senior management’s consistent
                      emphasis that knowing and understanding old and new lessons
                      learned is vital to the success of the CIP. However, NRC managers
                      acknowledged that there is no uniform sharing of construction-related
                      lessons learned information. Instead, the sharing occurs in an ad hoc
                                                         8
                         Audit of NRC’s Oversight of Construction at New Nuclear Facilities



   manner, such as conversations between colleagues, through generic
   communications and other agency documents, in periodic briefings,
   and through access to the construction experience database.

Construction Lessons Learned Guidance Is Not Fully Developed;
NRC Could Miss Opportunities

NRO-REG-112 lays out the foundation for evaluating construction lessons
learned; however, the guidance does not comprehensively discuss all the
elements identified as important to the success of a lessons learned
program. As such, the lack of a comprehensive, well-developed guidance
could jeopardize the CIP’s ability to successfully:

 Identify potentially significant negative and positive lessons learned.

 Use lessons learned to inform and revise inspection activities, as
  necessary.

 Achieve its goal to prevent recurrences of previously identified
  construction problems.

 Enhance public confidence in NRC’s ability to effectively oversee new
  nuclear construction projects.

According to NRC, successful implementation of the CIP is closely tied to
the level of experience and qualifications of the agency’s inspectors.
However, agency managers caution that the majority of NRC’s
construction inspection staff will have little, if any, actual experience
overseeing construction activities when assigned to work in the field.
Therefore, without fully developed guidance, agency inspection staff could
miss opportunities to identify and analyze potentially significant negative
and positive lessons learned associated with construction activities. This
becomes especially important in NRC’s current regulatory environment,
which has seen no new domestic nuclear power plant construction in more
than 20 years.

Recommendation

OIG recommends that the Executive Director for Operations:

1. Enhance CIP guidance, which includes NRO-REG-112, to include key
   elements identified as important to the success of an organization’s
   lessons learned program. Specifically:

      a. Define “lessons learned” as it applies to new reactor
         construction.



                               9
                  Audit of NRC’s Oversight of Construction at New Nuclear Facilities



b. Establish and document collection criteria for the types of
   information that CIP staff should bring forward for screening as
   potential lessons learned.

c. Further develop and document how a construction-related
   lesson learned will be implemented through the CIP.

d. Establish and document the level of expertise required for staff
   participation in the daily screening meetings.




                       10
                                 Audit of NRC’s Oversight of Construction at New Nuclear Facilities




IV.   AGENCY COMMENTS

         An exit conference was held with NRC senior executives on
         September 16, 2009. Agency officials generally agreed with the report’s
         finding and recommendations and decided not to provide formal
         comments. This final report incorporates informal comments provided by
         the agency, as appropriate.




                                      11
         Audit of NRC’s Oversight of Construction at New Nuclear Facilities




[Page intentionally left blank.]




              12
                                Audit of NRC’s Oversight of Construction at New Nuclear Facilities



                                                                                      Appendix
SCOPE AND METHODOLOGY

       The objective of this audit was to determine if and how NRC is identifying
       and incorporating lessons learned in its new construction inspection
       program. To address the audit objective, OIG analyzed CIP documents,
       and reviewed relevant management controls and related documentation
       from internal and external sources, including:

        10 CFR Part 52, Licenses, Certifications, and Approvals for Nuclear
         Power Plants.
        NUREG-1055, Improving Quality and the Assurance of Quality in the
         Design and Construction of Nuclear Power Plants: A Report to
         Congress, May 1984.
        NUREG-1789, 10 CFR Part 52 Construction Inspection Program
         Framework Document, April 2004.
        NRO-REG-112, New Reactor Construction Experience Program,
         March 31, 2009.
        Construction Industry Institute: Research Summary 230-1;
         Implementation Resource 230-2, and Research Report 230-11.
       Additionally, auditors observed Operating Experience Branch screening
       meetings between April 3 and May 18, 2009, and conducted interviews
       with NRC senior management and staff from headquarters and Region II
       and individuals from external organizations, including Federal Government
       agencies and private industry entities.
       OIG conducted this audit between December 2008 and June 2009 in
       accordance with generally accepted Government auditing standards.
       Those standards require that we plan and perform the audit to obtain
       sufficient, appropriate evidence to provide a reasonable basis for our
       findings and conclusions based on our audit objectives. We believe that
       the evidence obtained provides a reasonable basis for our findings and
       conclusions based on our audit objectives.

       Major contributors to this report are Sherri Miotla, Team Leader;
       Catherine Colleli, Audit Manager; Eric Rivera, Audit Manager;
       Timothy Wilson, Senior Analyst; and Vidya Sathyamoorthy, Student
       Management Analyst.




                                     13
